                        Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                                   14245

forms the basis for determining the          11, 2000. The applicant claims that the        Dated: February 7, 2003.
amount of extension an applicant may         investigational device exemption (IDE)       Jane A. Axelrad,
receive.                                     required under section 520(g) of the         Associate Director for Policy, Center for Drug
   A regulatory review period consists of    Federal Food, Drug, and Cosmetic Act         Evaluation and Research.
two periods of time: A testing phase and     (the act) (21 U.S.C. 360j(g)) for human      [FR Doc. 03–6892 Filed 3–21–03; 8:45 am]
an approval phase. For medical devices,      tests to begin became effective on June      BILLING CODE 4160–01–S
the testing phase begins with a clinical     16, 1999. However, FDA records
investigation of the device and runs         indicate that the IDE was determined
until the approval phase begins. The         substantially complete for clinical          DEPARTMENT OF HEALTH AND
approval phase starts with the initial       studies to have begun on August 11,          HUMAN SERVICES
submission of an application to market       2000, which represents the IDE effective
the device and continues until               date.                                        Health Resources and Services
permission to market the device is                                                        Administration
                                                2. The date the application was
granted. Although only a portion of a        initially submitted with respect to the
regulatory review period may count                                                        Notice of Filing of Annual Report of
                                             device under section 515 of the act (21      Federal Advisory Committee
toward the actual amount of extension
                                             U.S.C. 360e): May 29, 2001. The
that the Director of Patents and                                                             Notice is hereby given that pursuant
                                             applicant claims April 3, 2001, as the
Trademarks may award (half the testing                                                    to section 13 of Public Law 92–463, the
                                             date the premarket approval application
phase must be subtracted as well as any                                                   fiscal year 2002 annual report for the
                                             (PMA) for GENESIS
time that may have occurred before the                                                    following Health Resources and
                                             NEUROSTIMULATION SYSTEM (PMA
patent was issued), FDA’s determination                                                   Services Administration’s Federal
                                             P010032) was initially submitted.
of the length of a regulatory review                                                      advisory committee has been filed with
                                             However, FDA records indicate that
period for a medical device will include                                                  the Library of Congress: Maternal and
                                             PMA P010032 was submitted on May
all of the testing phase and approval                                                     Child Health Research Grants Review
                                             29, 2001.
phase as specified in 35 U.S.C.                                                           Committee.
156(g)(3)(B).                                   3. The date the application was
                                                                                             Copies are available to the public for
   FDA recently approved for marketing       approved: November 21, 2001. FDA has
                                                                                          inspection at the Library of Congress,
the medical device GENESIS                   verified the applicant’s claim that PMA
                                                                                          Newspaper and Current Periodical
NEUROSTIMULATION SYSTEM.                     P010032 was approved on November
                                                                                          Reading Room in the James Madison
GENESIS NEUROSTIMULATION                     21, 2001.
                                                                                          Memorial Building, Room LM–133
SYSTEM is indicated as an aid in the            This determination of the regulatory      (entrance on Independence Avenue,
management of chronic, intractable pain      review period establishes the maximum        between First and Second Streets, SE.,
of the trunk and/or limbs, including         potential length of a patent extension.      Washington, DC).
unilateral or bilateral pain associated      However, the U.S. Patent and                    Copies may be obtained from:
with failed back surgery syndrome,           Trademark Office applies several             Kishena C. Wadhwani, Ph.D., Executive
intractable low back pain, and leg pain.     statutory limitations in its calculations    Secretary, Maternal and Child Health
Subsequent to this approval, the Patent      of the actual period for patent extension.   Research Grants Review Committee,
and Trademark Office received a patent       In its application for patent extension,     Parklawn Building, Room 18A–55, 5600
term restoration application for             this applicant seeks 840 days of patent      Fishers Lane, Rockville, Maryland
GENESIS NEUROSTIMULATION                     term extension.                              20857, Telephone 301–443–2340.
SYSTEM (U.S. Patent No. 4,793,353)
                                                Anyone with knowledge that any of           Dated: March 17, 2003.
from Advanced Neuromodulation
                                             the dates as published are incorrect may     Jane M. Harrison,
Systems, and the Patent and Trademark
                                             submit to the Dockets Management
Office requested FDA’s assistance in                                                      Director, Division of Policy Review and
                                             Branch (see ADDRESSES) written or            Coordination.
determining this patent’s eligibility for
                                             electronic comments and ask for a
patent term restoration. In a letter dated                                                [FR Doc. 03–6858 Filed 3–21–03; 8:45 am]
October 31, 2002, FDA advised the            redetermination by May 23, 2003.
                                                                                          BILLING CODE 4165–15–P
Patent and Trademark Office that this        Furthermore, any interested person may
medical device had undergone a               petition FDA for a determination
regulatory review period and that the        regarding whether the applicant for          DEPARTMENT OF HEALTH AND
approval of GENESIS                          extension acted with due diligence           HUMAN SERVICES
NEUROSTIMULATION SYSTEM                      during the regulatory review period by
represented the first permitted              September 22, 2003. To meet its burden,      Office of Inspector General
commercial marketing or use of the           the petition must contain sufficient facts
                                             to merit an FDA investigation. (See H.       OIG Compliance Program Guidance for
product. Thereafter, the Patent and
                                             Rept. 857, part 1, 98th Cong., 2d sess.,     Ambulance Suppliers
Trademark Office requested that FDA
determine the product’s regulatory           pp. 41–42, 1984.) Petitions should be in
                                                                                          AGENCY: Office of Inspector General
review period.                               the format specified in 21 CFR 10.30.
                                                                                          (OIG), HHS.
   FDA has determined that the                  Comments and petitions should be          ACTION: Notice.
applicable regulatory review period for      submitted to the Dockets Management
GENESIS NEUROSTIMULATION                     Branch. Three copies of any information      SUMMARY: This Federal Register notice
SYSTEM is 469 days. Of this time, 292        are to be submitted, except that             sets forth the recently issued
days occurred during the testing phase       individuals may submit one copy              Compliance Program Guidance for
of the regulatory review period, while       identified with the docket number            Ambulance Suppliers developed by the
177 days occurred during the approval        found in brackets in the heading of this     Office of Inspector General (OIG). The
phase. These periods of time were            document. Comments and petitions may         OIG has previously developed and
derived from the following dates:            be seen in the Dockets Management            published voluntary compliance
   1. The date a clinical investigation      Branch between 9 a.m. and 4 p.m.,            program guidance focused on several
involving this device was begun: August      Monday through Friday.                       different areas of the health care
14246                    Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices

industry. This voluntary compliance           have consulted with the Centers for         compliance program and for those that
program guidance should assist                Medicare and Medicaid Services (CMS)        have already done so and are seeking to
ambulance suppliers and other health          and the Department of Justice in            analyze, improve or expand existing
care providers in developing their own        developing final guidance for               programs. As with the OIG’s previous
strategies for complying with federal         ambulance suppliers. This final             guidance, the guidelines discussed in
health care program requirements.             guidance outlines some of the most          this CPG are not mandatory, nor is the
FOR FURTHER INFORMATION CONTACT:              common and prevalent fraud and abuse        CPG an all-inclusive document
Sonya Castro, (202) 619–2078, or Joel         risk areas for the ambulance industry       containing all the components of a
Schaer, (202) 619–1306, Office of             and provides direction on how to: (1)       compliance program. Other OIG
Counsel to the Inspector General.             Address various risk areas; (2) prevent     outreach efforts, as well as other federal
SUPPLEMENTARY INFORMATION:
                                              the occurrence of instances of fraud and    agency efforts to promote compliance,
                                              abuse; and (3) develop corrective           can and should also be used in
Background                                    actions when those risks or instances of    developing a compliance program
  The creation of compliance program          fraud and abuse are identified.             tailored to an entity’s particular
guidances (CPGs) is a major initiative of        This CPG is divided into the             structure and operations.
the OIG in its effort to engage the private   following five separate sections, with an      This guidance focuses on compliance
health care community in preventing           appendix:                                   measures related to services furnished
the submission of erroneous claims and           • Section I is a brief introduction.     primarily under the Medicare program
in combating fraudulent and abusive              • Section II provides information        and, to a limited extent, other federal
conduct. In the past several years, the       about the basic elements of a               health care programs. (See, e.g., section
OIG has developed and issued CPGs             compliance program for ambulance            IV for a brief discussion of Medicaid
directed at a variety of segments in the      suppliers.                                  ambulance coverage.) Suppliers are free
health care industry. The development            • Section III discusses various fraud    to address private payor claims and
of these CPGs is based on our belief that     and abuse and compliance risks              services in their compliance programs.
a health care provider can use internal       associated with ambulance services             As in other sectors of the health care
controls to more efficiently monitor          covered under the Medicare program.         industry, most ambulance suppliers are
adherence to applicable statutes,                • Section IV briefly summarizes          honest suppliers trying to deliver
regulations, and program requirements.        compliance risks related to Medicaid        quality services. However, like other
Copies of these CPGs can be found on          coverage for transportation services.       health care industry sectors, the
the OIG Web site at http://oig.hhs.gov.          • Section V discusses various risks      ambulance industry has seen its share of
                                              under the anti-kickback statute.            fraudulent and abusive practices. The
Developing Compliance Program                    • The appendix provides relevant         OIG has reported and pursued a number
Guidance for Ambulance Suppliers              statutory and regulatory citations, as      of different fraudulent and abusive
   Having experienced a number of             well as brief discussions of additional     practices in the ambulance transport
instances of ambulance provider and           potential risk areas to consider when       field. Examples include:
supplier fraud and abuse, the                 developing a compliance program.               • Improper transport of individuals
ambulance industry has expressed                 Under the Social Security Act (the       with other acceptable means of
interest in protecting against such           Act), ambulance ‘‘providers’’ are           transportation;
                                              Medicare participating institutional           • Medically unnecessary trips;
conduct through increased guidance to                                                        • Trips claimed but not rendered;
the industry. To date, the OIG has            providers that submit claims for
                                              Medicare ambulance services (e.g.,             • Misrepresentation of the transport
issued several advisory opinions on a                                                     destination to make it appear as if the
variety of ambulance-related issues (see      hospitals, including critical access
                                              hospitals (CAHs) and skilled nursing        transport was covered;
endnote 13 in this compliance program                                                        • False documentation;
guidance) and has published final             facilities (SNFs); the term ‘‘supplier’’
                                              means an entity that is other than a           • Billing for each patient transported
rulemaking concerning a safe harbor for                                                   in a group as if he/she was transported
ambulance restocking arrangements (66         provider. For purposes of this
                                              document, we will refer to both             separately;
FR 62979; December 4, 2001).
                                              ambulance suppliers and providers as           • Upcoding from basic life support to
   To provide further guidance, the OIG                                                   advanced life support services; and
                                              ambulance ‘‘suppliers.’’
published a Federal Register notice (65                                                      • Payment of kickbacks.
FR 50204; August 17, 2000) that               Compliance Program Guidance for                To help reduce the incidence and
solicited general comments,                   Ambulance Suppliers                         prevalence of fraudulent or abusive
recommendations, and other                                                                conduct, an ambulance supplier should
suggestions from concerned parties and        I. Introduction                             consider the recommendations in this
organizations on how best to develop            The OIG recognizes that the               guidance.
compliance guidance for ambulance             ambulance industry is comprised of             This final CPG has been modified
suppliers to reduce the potential for         entities of enormous variation: some        from the draft CPG to take into further
fraud and abuse. On June 6, 2002, the         ambulance companies are large, many         consideration CMS’s adoption of a new
OIG published a Draft Compliance              are small; some are for-profit, many are    fee schedule for payment of ambulance
Program Guidance to afford all                not-for-profit; some are affiliated with    services. The CMS’s ambulance fee
interested parties a further opportunity      hospitals, many are independent; and        schedule is the product of a negotiated
to provide specific comments in the           some are operated by municipalities or      rulemaking process and will replace
development of this final CPG (67 FR          counties, while others are commercially     (over a five-year transition period) the
39015; June 6, 2002). In response to that     owned. Consequently, this guidance is       retrospective, reasonable cost
notice, the OIG received three public         not intended to be a one-size-fits-all      reimbursement system for providers,
comments, collectively representing a         guide. Rather, like the previous CPGs,      and the reasonable charge system for
variety of outside sources. We have           this guidance is intended as a helpful      suppliers of ambulance services. As the
carefully considered those comments, as       tool for those entities that are            government and the industry gain more
well as previous OIG publications, and        considering establishing a voluntary        experience under the new fee schedule,
                        Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                            14247

the OIG may update or supplement this       appropriately to detected offenses,        process may be simple and
CPG to address newly identified risk        including the initiation of appropriate    straightforward or it may be fairly
areas, as appropriate.                      corrective action. An organization’s       complex and involved. For example, an
                                            response to detected misconduct will       evaluation of whether an ambulance
II. Elements of a Compliance Program
                                            vary based on the facts and                supplier’s existing written policies and
for Ambulance Suppliers
                                            circumstances of the offense. However,     procedures accurately reflect current
A. Basic Elements of a Compliance           the response should always be              federal health care program
Program                                     appropriate to resolve and correct the     requirements is straightforward.
  The following basic components have       situation in a timely manner. The          However, an evaluation of whether an
become accepted as the building blocks      organization’s compliance officer, and     ambulance supplier’s actual practices
of an effective compliance program:         legal counsel in some circumstances,       conform to its policies and procedures
                                            should be involved in situations when      may be more complex and require
1. Development of Compliance Policies       serious misconduct is identified.
and Procedures                                                                         several analytical evaluations to
                                            6. Developing Open Lines of                determine whether system weaknesses
   The ambulance supplier should            Communication                              are present. Even more complex is an
develop and distribute written                                                         evaluation of an ambulance supplier’s
standards of conduct, as well as written       Ambulance suppliers should create
                                            and maintain a process, such as a          practices in light of applicable statutes,
policies and procedures, that reflect the
                                            hotline or other reporting system, to      regulations, and other program
ambulance supplier’s commitment to
                                            receive and process complaints and to      requirements, when there are no pre-
compliance and address specific areas
of potential fraud or abuse. These          ensure effective lines of communication    existing written policies and
written policies and procedures should      between the compliance officer and all     procedures.
be reviewed periodically (e.g., annually)   employees. Further, procedures should         The evaluation process should furnish
and revised as appropriate to ensure        be adopted to protect the anonymity of     ambulance suppliers with a snapshot of
they are current and relevant.              complainants, where the complainants       their strengths and weaknesses and
                                            desire to remain anonymous, and to         assist providers in recognizing areas of
2. Designation of a Compliance Officer      protect whistleblowers from retaliation.   potential risk. We suggest that
   The ambulance supplier should            7. Enforcing Disciplinary Standards        ambulance suppliers evaluate a variety
designate a compliance officer and other    Through Well-Publicized Guidelines         of practices and factors, including their
appropriate bodies (e.g., a compliance                                                 policies and procedures, employee
committee) charged with the                    Ambulance suppliers should develop
                                            policies and procedures to ensure that     training and education, employee
responsibility for operating and                                                       knowledge and understanding, claims
monitoring the organization’s               there are appropriate disciplinary
                                            mechanisms and standards that are          submission process, coding and billing,
compliance program. The compliance                                                     accounts receivable management,
officer should be a high-level individual   applied in an appropriate and consistent
                                            manner. These policies and standards       documentation practices, management
in the organization who reports directly
                                            should address situations in which         structure, employee turnover,
to the organization’s upper
                                            employees or contractors violate,          contractual arrangements, changes in
management, such as the chief
executive officer or board of directors.    whether intentionally or negligently,      reimbursement policies, and payor
The OIG recognizes that an ambulance        internal compliance policies, applicable   expectations.
supplier may tailor the job functions of    statutes, regulations, or other federal
                                                                                       1. Policies and Procedures
the compliance officer position by          health care program requirements.
taking into account the size and               Developing and implementing a              Because policies and procedures
structure of the organization, existing     compliance program may require             represent the written standard for daily
reporting lines, and other appropriate      significant resources and time. An         operations, an ambulance supplier’s
factors.                                    individual ambulance supplier is best      policies and procedures should describe
                                            situated to tailor compliance measures     the normal operations of the ambulance
3. Education and Training Programs          to its own organizational structure and    supplier and the applicable rules and
   A key element of a compliance            financial capabilities. In addition,       regulations. Further, written policies
program should be regular training and      compliance programs should be              and procedures should go through a
education of employees and other            reviewed periodically to account for
                                                                                       formal approval process within the
appropriate individuals. Training           changes in the health care industry,
                                                                                       organization and should be evaluated on
content should be tailored appropriately    federal health care statutes and
                                                                                       a routine basis, and updated as needed,
and should be delivered in a way that       regulations, relevant payment policies
                                                                                       to reflect current ambulance practices
will maximize the chances that the          and procedures, and identified risks.
                                                                                       (assuming these practices are
information will be understood by the       B. Evaluation and Risk Analysis            appropriate and comport with the
target audience.                                                                       relevant statutes, regulations, and
                                              It is prudent for ambulance suppliers
4. Internal Monitoring and Reviews          conducting a risk analysis to begin by     program requirements). In addition,
   Appropriate monitoring methods are       performing an evaluation of internal and   ambulance suppliers should review
essential to detect and identify problems   external factors that affect their         policies and procedures to ensure that
and to help reduce the future likelihood    operations. These may include internal     they are representative of actual
of problems.                                systems and management issues, as well     practices. For example, an ambulance
                                            as the federal health care program         supplier’s policy for reviewing
5. Responding Appropriately to              requirements that govern their business    ambulance call reports (ACRs) should
Detected Misconduct                         operations. In many cases, such            not state that it will review 100 percent
   Ambulance suppliers should develop       evaluation will result in the creation     of its ACRs, unless the ambulance
policies and procedures directed at         and adoption or revision of written        supplier is capable of performing and
ensuring that the organization responds     policies and procedures. The evaluation    enforcing such comprehensive reviews.
14248                   Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices

2. Training and Education                   consider seeking, developing, or using        selected will comprise the area of focus
   Ensuring that a supplier’s employees     other innovative training methods.            for the review. Once the universe of
and agents receive adequate education       Computer or internet modules may be           claims has been identified, an
and training is essential to minimizing     an effective means of training if             acceptable number of claims should be
risk. Employees should clearly              employees have access to such                 randomly selected. Because the universe
understand what is expected of them         technology and if a system is developed       of claims and the variability of items in
and for what they will be held              to allow employees to ask questions.          the universe will vary, the OIG cannot
accountable. Suppliers should also          The OIG cannot endorse any                    specify a generally acceptable number of
document and track the training they        commercial training product; it is up to      claims for purposes of a claims review.
                                            each ambulance supplier to determine if       However, the number of claims sampled
provide to employees and others.
   An ambulance supplier should             the training methods and products are         and reviewed should be sufficient to
consider offering two types of              effective and appropriate.                    ensure that the results are representative
                                               Whatever form of training ambulance        of the universe of claims from which the
compliance training: compliance
                                            suppliers provide, the OIG also               sample was pulled.
program training and job-specific
                                            recommends that employees complete a             Ambulance suppliers should not only
training. If an ambulance supplier is
                                            post-compliance training test or              monitor identified errors, but also
implementing a formal compliance            questionnaire to verify comprehension         evaluate the source or cause of the
program, employees should be trained        of the material presented. This will          errors. For example, an ambulance
on the elements of the program, the         allow a supplier to assess the                supplier may identify through a review
importance of the program to the            effectiveness and quality of its training     a certain claims error rate. Upon further
organization, the purpose and goals of      materials and techniques. Additionally,       evaluation, the ambulance supplier may
the program, what the program means         training materials should be updated as       determine that the errors were a result
for each individual, and the key            appropriate and presented in a manner         of inadequate documentation. Further
individuals responsible for ensuring        that is understandable by the average         evaluation may reveal that the
that the program is operating               trainee. Finally, the OIG suggests that       documentation deficiencies involve a
successfully. Compliance program            the employees’ attendance at, and             limited number of individuals who
education should be available to all        completion of, training be tracked and        work on a specific shift. It is the
employees, even those whose job             appropriate documentation maintained.         ambulance supplier’s responsibility to
functions are not directly related to                                                     identify such weaknesses and to correct
billing or patient care.                    3. Assessment of Claims Submission
                                                                                          them promptly. In this example, at a
   Ambulance suppliers should also          Process
                                                                                          minimum, additional employee training
train employees on specific areas with         Ambulance suppliers should conduct         should be required and any identified
regard to their particular job positions    periodic claims reviews to verify that a      overpayment repaid. A detailed and
and responsibilities, whether or not as     claim ready for submission, or one that       logical analysis will make claims
part of a formal compliance plan. The       has been submitted and paid, contains         reviews useful tools for identifying
intensity and the nature of the specific    the required, accurate, and truthful          risks, correcting weaknesses, and
training will vary by employee type.        information required by the payor. An         preventing future errors.
Training employees on the job functions     ambulance claims review should focus,            Ambulance suppliers should consider
of other people in the organization may     at a minimum, on the information and          using a baseline audit to develop a
also be an effective training tool.         documentation present in the ACR, the         benchmark against which to measure
Appropriate cross-training can improve      medical necessity of the transport as         performance. This audit will establish a
employees’ overall awareness of             determined by payor requirements, the         consistent methodology for selecting
compliance and job functions, thereby       coding of the claim, the co-payment           and examining records in future audits.
increasing the likelihood that an           collection process, and the subsequent        Comparing audit results from different
individual employee will recognize          payor reimbursement. The claims               audits will generally yield useful results
non-compliance. Training should be          reviews should be conducted by                only when the audits analyze the same
provided on a periodic basis to keep        individuals with experience in coding         or similar information and when
employees current on ambulance              and billing and familiar with the             matching methodologies are used.
supplier requirements, including, for       different payors’ coverage and                   As part of its compliance efforts, an
example, the latest payor requirements.     reimbursement requirements for                ambulance supplier should document
Ambulance suppliers should conduct or       ambulance services. The reviewers             how often audits or reviews are
make available training for employees at    should be independent and objective in        conducted and the information
least yearly, and more often if needed.     their approach. Claims reviewers who          reviewed for each audit. The ambulance
   Generally, employees who attend          analyze claims that they themselves           supplier should not only use internal
interactive training better comprehend      prepared or supervised often lack             benchmarks, but should utilize external
the material presented. Interactive         sufficient independence to accurately         information, if available, to establish
training offers employees the chance to     evaluate the claims submissions process       benchmarks (e.g., data from other
ask questions and receive feedback.         and the accuracy of individual claims.        ambulance suppliers, associations, or
When possible, ambulance suppliers          The appearance of a lack of                   from payors). Additionally, risk areas
should use ‘‘real’’ examples of             independence may hinder the                   may be identified from the results of the
compliance pitfalls provided by             effectiveness of a claims review.             audits.
personnel with ‘‘real life’’ experience,       Depending on the purpose and scope            If a material deficiency is identified
such as emergency medical technicians       of a claims review, there are a variety of    that could be a potential criminal, civil,
and paramedics.                             ways to conduct the review. The claims        or administrative violation, the
   The OIG is cognizant that offering       review may focus on particular areas of       ambulance supplier may disclose the
interactive, live training often requires   interest (e.g., coding accuracy), or it may   matter to the OIG via the Provider Self-
significant personnel and time              include all aspects of the claims             Disclosure Protocol. The Provider Self-
commitments. As appropriate,                submission and payment process. The           Disclosure Protocol was designed to
ambulance suppliers may wish to             universe from which the claims are            allow providers/suppliers to disclose
                         Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                                14249

voluntarily potential violations in their     tracking processes. A weakness or            http://oig.hhs.gov and http://
dealings with the federal health care         deficiency in any part of the supplier’s     www.arnet.gov/epls, respectively, and
programs. In all cases, identified            system can lead to improper claims,          contain specific instructions for
overpayments should be reported to the        undetected overpayments, or failure to       searching the exclusion and debarment
appropriate payor.                            detect system defects.                       databases.
                                                 Each ambulance supplier should have
a. Pre-Billing Review of Claims               computer or other system edits to            C. Identification of Risks
   As a general matter, ambulance             ensure that minimum data requirements
suppliers should review claims on a           are met. For example, under CMS’s new           This ambulance CPG discusses many
pre-billing basis to identify errors before   fee schedule, each transport claim that      of the areas that the ambulance
claims are submitted. If there is             does not have an originating zip code        industry, the OIG, or CMS have
insufficient documentation to support         listed should be ‘‘flagged’’ by the          identified as common risks for many
the claim, the claim should not be            system. Other edits should be                ambulance suppliers. However, this
submitted. Pre-billing reviews also           established to detect potentially            CPG does not identify or discuss all
allow suppliers to review the medical         improper claims submissions. A               risks that an ambulance supplier may
necessity of their claims. If, as a result    systems review is especially important       itself identify. Moreover, the CPG may
of the pre-billing claims review process,     when documentation or billing                ascribe more or less risk to a particular
a pattern of claim submission or coding       requirements are modified or when an         practice area than an ambulance
errors is identified, the ambulance           ambulance supplier changes its billing       supplier would encounter based on its
supplier should develop a responsive          software or claims vendors. As               own internal findings and
action plan to ensure that overpayments       appropriate, ambulance suppliers             circumstances. Because there are many
are identified and repaid.                    should communicate with their payor          different types of risk areas, ambulance
                                              when they are implementing significant       suppliers should prioritize their
b. Paid Claims                                changes to their system to alert the         identified risks to ensure that the
   In addition to a pre-billing review, a     payor to any unexpected delays, or           various areas are addressed
review of paid claims may be necessary        increases or decreases in claims
                                                                                           appropriately. Apart from the risks
to determine error rates and quantify         submissions.
overpayments and/or underpayments.               Ambulance suppliers should ensure         identified in this CPG, ambulance
The post-payment review may help              that their electronic or computer billing    suppliers of all types (e.g., small, large,
ambulance suppliers in identifying            systems do not automatically insert          rural, emergency, non-emergency)
billing or coding software system             information that is not supported by the     should evaluate whether they have any
problems. Any overpayments identified         documentation of the medical or trip         unique risks attendant to their business
from the review should be promptly            sheets. For example, billing systems         relationships or processes. For example,
returned to the appropriate payor in          targeting optimum efficiency may be set      a small, rural not-for-profit ambulance
accordance with payor policies.               with defaults to indicate that a             supplier may identify risk areas
                                              physician’s signature was obtained           different from those of a large, for-profit
c. Claims Denials                             following an emergency room transport.       ambulance chain that serves a primarily
   Ambulance suppliers should review          If information is automatically inserted     urban area. To stay abreast of risks
their claims denials periodically to          onto a claim submitted for                   affecting the ambulance and other
determine if denial patterns exist. If a      reimbursement, and that information is       health care industries, the OIG
pattern of claims denials is detected, the    false, the ambulance supplier’s claims       recommends that ambulance suppliers
pattern should be evaluated to                will be false. If a required field on a      review OIG publications regarding
determine the cause and appropriate           claim form is missing information, the       ambulance services, including OIG
course of action. Employee education          system should flag the claim prior to its    advisory opinions, OIG fraud alerts and
regarding proper documentation,               submission.                                  bulletins, Office of Evaluation and
coding, or medical necessity may be
                                              5. Sanctioned Suppliers                      Inspections (OEI) reports, and Office of
appropriate. If an ambulance supplier
                                                 Federal law prohibits Medicare            Audit Services reports, all located on
believes its payor is not adequately
explaining the basis for its denials, the     payment for services furnished by an         the OIG’s Web site at http://oig.hhs.gov.
ambulance supplier should seek                excluded individual, such as an              A review of industry-specific trade
clarification in writing.                     excluded ambulance crew member.              publications will also help ambulance
                                              Accordingly, ambulance suppliers             suppliers remain current on industry
4. System Reviews and Safeguards              should query the OIG and General             changes.
   Periodic review and testing of a           Services Administration (GSA)
                                                                                           D. Response to Identified Risks
supplier’s coding and billing systems         exclusion and debarments lists before
are also essential to detect system           they employ or contract with new                An ambulance supplier should
weaknesses. One reliable systems              employees or new contractors.                develop a reasonable response to
review method is to analyze in detail         Additionally, ambulance suppliers            address identified risk areas, including
the entire process by which a claim is        should periodically (at least yearly)        written protocols and reasonable time
generated, including how a transport is       check the OIG and GSA web sites to           frames for specific situations.
documented and by whom; how that              ensure that they are not employing or        Developing timely and appropriate
information is entered into the               contracting with individuals or entities
                                                                                           responsive actions demonstrates the
supplier’s automated system (if any);         that have been recently convicted of a
                                                                                           supplier’s commitment to address
coding and medical necessity                  criminal offense related to health care or
determination protocols; billing system       who are listed as debarred, suspended,       problems and concerns. Determining
processes and controls, including any         excluded, or otherwise ineligible for        whether identified problems respond to
edits or data entry limitations; and          participation in federal health care         corrective actions may require continual
finally the claims generation,                programs. The OIG and GSA Web sites          oversight.
submission, and subsequent payment            are listed at
14250                    Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices

III. Specific Fraud and Abuse Risks            from BLS to ALS related to both               3. Scheduled and Unscheduled
Associated With Medicare Ambulance             emergency and non-emergency                   Transports
Coverage and Reimbursement                     transports. In 1999, for example, an OIG
Requirements                                   investigation determined that an                 Because of the potential for abuse in
                                                                                             the area of non-emergency transports,
  Ambulance suppliers should review            ambulance supplier was not only billing
                                                                                             Medicare has criteria for the coverage of
and understand applicable ambulance            for ALS services when BLS services
                                                                                             non-emergency scheduled and
coverage requirements. Ambulance               were provided, but the ambulance
                                                                                             unscheduled ambulance transports. For
suppliers that are not complying with          supplier did not employ an ALS-               example, physician certification
applicable requirements should take            certified individual to perform the           statements (PCS) should be obtained by
appropriate, prompt corrective action to       necessary ALS services. This supplier         an ambulance supplier to verify that the
follow the relevant requirements. The          paid civil penalties and signed a five-       transport was medically necessary. The
new fee schedule covers seven levels of        year corporate integrity agreement            PCSs should provide adequate
service, including Basic Life Support          (CIA).                                        information on the transport provided
(BLS), Advanced Life Support, Level 1                                                        for each individual beneficiary, and
(ALS1), Advanced Life Support, Level 2         2. Non-Emergency Transports
                                                                                             each PCS must be signed by an
(ALS2), Specialty Care Transport,                 There have also been a number of           appropriate physician or other
Paramedic ALS Intercept, Fixed Wing            Medicare fraud cases involving non-           appropriate health care professional.
Air Ambulance, and Rotary Wing Air                                                           Except for pre-signed PCSs for
                                               emergency transports (i) to non-covered
Ambulance. Generally, Medicare Part B                                                        scheduled, repetitive ambulance
                                               destinations and (ii) that were not
covers ambulance transports if                                                               transports, which can be valid for up to
                                               medically necessary. An OIG OEI report,
applicable vehicle and staff                                                                 60 days of transport service, pre-signed
requirements, medical necessity                issued in December 1998, found that a
                                               high number of non-emergency                  and/or mass produced PCSs are not
requirements, billing and reporting                                                          acceptable because they increase the
requirements, and origin and                   transports for which Medicare claims
                                               were submitted were medically                 opportunity for abuse.
destination requirements are met.
Medicare Part B will not pay for               unnecessary as defined by Medicare’s             Medicare does not cover transports for
ambulance services if Part A has paid          criteria. Medicare’s ambulance fee            routine doctor and dialysis
directly or indirectly for the same            schedule identifies non-emergency             appointments when beneficiaries do not
services.                                      transport as appropriate if (i) the           meet the Medicare medical necessity
                                               beneficiary is bed-confined and his or        requirements. Similarly, ambulance
A. Medical Necessity                           her medical condition is such that other      services that are rendered for
   Medically unnecessary transports            methods of transportation are                 convenience or because other methods
have formed the basis for a number of          contraindicated, or (ii) the beneficiary’s    of more appropriate transportation are
Medicare and Medicaid fraud cases.                                                           not available do not meet Medicare’s
                                               medical condition, regardless of bed-
Consequently, medical necessity is a                                                         medical necessity requirements and
                                               confinement, is such that transportation
risk area that should be addressed in an                                                     claims for such services should not be
                                               by ambulance is medically required.
ambulance supplier’s compliance                                                              submitted to Medicare for payment. For
                                               The beneficiary’s medical condition and       example, an ambulance supplier was
program. Medicare Part B covers                the necessity for ambulance
ambulance services only if the                                                               required to pay over $1 million to the
                                               transportation must be documented. In         federal government and enter into a CIA
beneficiary’s medical condition                determining whether a beneficiary is
contraindicates another means of                                                             with the OIG for billing for medically
                                               bed-confined, the following criteria          unnecessary ambulance trips and for
transportation. The medical necessity
                                               must be met: (i) The beneficiary must be      non-covered ambulance trips to doctors’
requirements vary depending on the
                                               unable to get up from bed without             offices.
status of the ambulance transport (i.e.,
emergency transport vs. non-emergency          assistance; (ii) the beneficiary must be
                                               unable to ambulate; and (iii) the             B. Documentation, Billing, and
transport). If the medical necessity                                                         Reporting Risks
requirement is met, Medicare Part B            beneficiary must be unable to sit in a
covers ambulance services when a               chair or wheelchair (42 CFR 410.40 (d)).         Currently, the HCFA 1491 or 1500
beneficiary is transported:                    The fact that other modes of                  forms are the approved forms for
   • To a hospital, a critical access          transportation may not be as readily          requesting Medicare payment for
hospital (CAH), or a skilled nursing           available or as convenient does not           ambulance services. Inadequate or
facility (SNF), from anywhere, including       justify coverage for ambulance transport      faulty documentation is a key risk area
another acute care facility, or SNF;           for a beneficiary who does not meet           for ambulance suppliers. The
   • To his or her home from a hospital,       Medicare’s medical necessity                  compilation of correct and accurate
CAH, or SNF;                                   requirements.                                 documentation (whether electronic or
   • Round trip from a hospital, CAH, or          Under no circumstances should              hard copy) is generally the
SNF to an outside supplier to receive          ambulance suppliers mischaracterize           responsibility of all the ambulance
medically necessary therapeutic or                                                           personnel, including the dispatcher who
                                               the condition of the patient at the time
diagnostic services; or                                                                      receives a request for transportation, the
                                               of transport in an effort to claim that the
   • To the nearest appropriate renal          transport was medically necessary
                                                                                             personnel transporting the patient, and
dialysis facility from his or her home.                                                      the coders and billers submitting claims
                                               under Medicare coverage requirements.         for reimbursement. When documenting
1. Upcoding                                    If it is unclear whether the service will     a service, ambulance personnel should
  Ambulance suppliers should be                be covered by Medicare, the ambulance         not make assumptions or inferences to
careful to bill at the appropriate level for   supplier should nonetheless                   compensate for a lack of information or
services actually provided. The federal        appropriately document the condition          contradictory information on a trip
government has prosecuted a number of          of the patient and maintain records of        sheet, ACR, or other medical source
ambulance cases involving upcoding             the transport.                                documents.
                         Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                                 14251

  To ensure that adequate and                  requests a transport to a facility other     medically necessary services for eligible
appropriate information is documented,         than the nearest appropriate facility, the   Medicaid recipients. Each state
an ambulance supplier should gather            ambulance supplier should inform the         establishes its own Medicaid
and record, at a minimum, the                  patient that he or she may be                regulations, which vary depending on
following:                                     responsible for payment of the               the state plan. However, two federal
  • Dispatch instructions, if any;             additional mileage incurred.                 regulations form the basis for all
  • Reasons why transportation by                                                           Medicaid reimbursement for
                                               3. Multiple Payors—Coordination of
other means was contraindicated;                                                            transportation services and ensure a
  • Reasons for selecting the level of         Benefits
                                                                                            minimum level of coverage for
service;                                          Ambulance suppliers should make           transportation services. First, all states
  • Information on the status of the           every attempt to determine whether           that receive federal Medicaid funds are
individual;                                    Medicare, Medicaid, or other federal         required to assure transportation for
  • Who ordered the trip;                      health care programs should be billed as     Medicaid recipients to and from
  • Time spent on the trip;                    the primary or as the secondary insurer.     medical appointments (42 CFR 431.53).
  • Dispatch, arrival at scene, and            Claims for payment should not be             Second, federal regulations further
destination times;                             submitted to more than one payor,            define medical transportation and
  • Mileage traveled;                          except for purposes of coordinating          describe costs that can be reimbursed
  • Pickup and destination codes;              benefits (e.g., Medicare as secondary        with Medicaid funds (42 CFR
  • Appropriate zip codes; and                 payor). Section 1862(b)(6) of the Act (42    440.170(a)).
  • Services provided, including drugs         U.S.C. 1395y(b)(6)) states that an entity       In short, Medicaid often covers
or supplies.                                   that knowingly, willfully, and               transports that are not typically covered
1. Healthcare Common Procedure                 repeatedly fails to provide accurate         by Medicare, such as transports in
Coding System (HCPCS)                          information relating to the availability     wheelchair vans, cabs, and ambulettes.
                                               of other health benefit plans shall be       However, the transports are subject to
   The appropriate HCPCS codes should          subject to a civil money penalty (CMP).      strict coverage and payment rules. The
be used when submitting claims for                The OIG recognizes that there are         state Medicaid Fraud Control Units and
reimbursement. The HCPCS codes                 instances when the secondary payor is        federal law enforcement have pursued
reported on the ambulance trip sheets or       not known or cannot be determined            many fraud cases related to
claim forms should be selected to              before the ambulance transportation          transportation services billed to
describe most accurately the type of           claim is submitted. This may be              Medicaid programs. Ambulance
transport provided based on the                particularly true for ambulance              suppliers should review the Medicaid
patient’s illness, injury, signs, or           suppliers that have incomplete               regulations governing their state or
symptoms at the time of the ambulance          insurance information from a                 service territories to ensure that any
transport. HCPCS codes should not be           transported patient. In such situations,     billed services meet applicable
selected based on information relating         if an ambulance supplier receives an         Medicaid requirements.
to the patient’s past medical history or       inappropriate or duplicate payment, the
prior conditions, unless such                  payment should be refunded to the            V. Kickbacks and Inducements
information also specifically relates to       appropriate payor in a timely manner.        A. What Is the Anti-Kickback Statute?
the patient’s condition at the time of         Accordingly, ambulance suppliers
transport. Ambulance suppliers should          should develop a system to track and           The anti-kickback statute prohibits
use caution not to submit incorrect            quantify credit balances to return           the purposeful payment of anything of
HCPCS codes on trip sheets or claims to        overpayments when they occur.                value (i.e., remuneration) in order to
justify reimbursement.                                                                      induce or reward referrals of federal
                                               C. Medicare Part A Payment for ‘‘Under       health care program business, including
2. Origin/Destination Requirements—            Arrangements’’ Services                      Medicare and Medicaid business.12 (See
Loaded Miles                                                                                section 1128B(b) of the Act (42 U.S.C.
                                                  In certain instances, SNFs, hospitals,
   Medicare only covers transports for         or CAHs, may provide ambulance               1320a–7b).) It is a criminal prohibition
the time that the patient is physically in     services ‘‘under arrangements’’ with an      that subjects violators to possible
the ambulance. Effective January 1,            ambulance supplier. In such cases, the       imprisonment and criminal fines. In
2001, ambulance suppliers must furnish         SNF, hospital, or CAH is the entity          addition, violations of the anti-kickback
the ‘‘point of pickup’’ zip code on each       furnishing the transport. Accordingly,       statute may give rise to CMPs and
ambulance claim form. Under the new            Medicare pays the SNF, hospital, or          exclusion from the federal health care
Medicare ambulance fee schedule, the           CAH for the service. The SNF, hospital,      programs. Both parties to an
point of pickup will determine the             or CAH pays the ambulance supplier a         impermissible kickback transaction may
mileage payment rate. The ambulance            contractually agreed amount.                 be liable: the party offering or paying
supplier should document the address           Ambulance suppliers that provide such        the kickback, as well as the party
of the point of pickup to verify that the      transports ‘‘under arrangements’’ with a     soliciting or receiving it. The key
zip code is accurate.                          SNF, hospital, or CAH should not bill        inquiry under the statute is whether the
   The ambulance crew should                   Medicare for these transports. All such      parties intend to pay, or be paid, for
accurately report the mileage traveled         arrangements should be carefully             referrals. Paying for referrals need not be
from the point of pickup to the                reviewed to ensure that there is no          the only or primary purpose of a
destination. Medicare covers ambulance         violation of the anti-kickback statute, as   payment; as courts have found, if any
transports to the nearest available            more fully described in section V.           one purpose of the payment is to induce
treatment facility. If the nearest facility                                                 or reward referrals, the statute is
is not appropriate (e.g., because of traffic   IV. Medicaid Ambulance Coverage              violated. (See, e.g., United States v.
patterns or an inability to address the          The Medicaid program, a joint federal      Kats, 871 F.2d 105 (9th Cir. 1989);
patient’s condition), the beneficiary          and state health insurance program,          United States v. Greber, 760 F.2d 68 (3d
should be taken to the next closest            provides funds for health care providers     Cir.), cert. denied, 474 U.S. 988 (1985).)
appropriate facility. If a beneficiary         and suppliers that perform or deliver        In short, an ambulance supplier should
14252                       Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices

neither make nor accept payments                   E. For Whom Are Ambulance Suppliers          purchasers’ obligations to report the
intended, in whole or in part, to                  Sources of Referrals?                        discounts to the federal programs.
generate federal health care program                 In some circumstances, ambulance           Accurate and complete records should
business.                                          suppliers furnishing ambulance services      be kept of all discount arrangements.
                                                   may be sources of referrals (i.e.,              Ambulance suppliers should exercise
B. What Are ‘‘Safe Harbors’?                                                                    caution when selling services to
                                                   patients) for hospitals, other receiving
   The department has promulgated                  facilities, and second responders.           purchasers who are also in a position to
‘‘safe harbor’’ regulations that describe          Ambulance suppliers that furnish other       generate federal health care program
payment practices that do not violate              types of transportation, such as             business for ambulance suppliers (e.g.,
the anti-kickback statute, provided the            ambulette or van transportation, also        SNFs or hospitals that purchase
payment practice fits squarely within a            may be sources of referrals for other        ambulance services for private pay and
safe harbor. The safe harbor regulations           providers of federal heath care program      Part A patients, but refer Part B and
can be found at 42 CFR 1001.952 and on             services, such as physician offices,         Medicaid patients to ambulance
the OIG Web page at http://oig.hhs.gov/            diagnostic facilities, and certain senior    suppliers). Any link or connection,
fraud/safeharborregulations.html#1.                centers. In general, ambulance               whether explicit or implicit, between
                                                   suppliers—particularly those furnishing      the price offered for business paid out
Compliance with the safe harbor
                                                   emergency services—have relatively           of the purchaser’s pocket and referrals
regulations is voluntary. Thus, failure to
                                                   limited abilities to generate business for   of federal program business billable by
comply with a safe harbor does not
                                                   other providers or to inappropriately        the ambulance supplier will implicate
mean that an arrangement is illegal.
                                                   steer patients to particular emergency       the anti-kickback statute.
Rather, arrangements that do not fit in
                                                   providers.                                      An ambulance supplier should not
a safe harbor must be analyzed under
                                                                                                offer or provide gifts, free items or
the anti-kickback statute on a case-by-            F. How Can Ambulance Suppliers               services, or other incentives of greater
case basis to determine if there is a              Avoid Risk Under the Anti-Kickback           than nominal value to referral sources,
violation. To minimize the risk under              Statute?                                     including patients, and should not
the anti-kickback statute, ambulance                                                            accept such gifts and benefits from
suppliers should structure arrangements              Because of the gravity of the penalties
                                                   under the anti-kickback statute,             parties soliciting referrals from the
to take advantage of the protection                                                             ambulance supplier. In general, token
offered by the safe harbors whenever               ambulance suppliers are strongly
                                                   encouraged to consult with experienced       gifts used on an occasional basis to
possible. Safe harbors that may be                                                              demonstrate good will or appreciation
useful for ambulance suppliers include             legal counsel about any financial
                                                   relationships involving potential referral   (e.g., logo key chains, mugs, or pens)
those for space rentals, equipment                                                              will be considered to be nominal in
rentals, personal services and                     sources. In addition, ambulance
                                                   suppliers should review OIG guidance         value.
management contracts, discounts,
employees, price reductions offered to             related to the anti-kickback statute,        G. Are There Particular Arrangements to
health plans, shared risk arrangements,            including advisory opinions, fraud           Which Ambulance Suppliers Should Be
and ambulance restocking                           alerts, and special advisory bulletins.      Alert?
arrangements. (42 CFR 1001.952(b), (c),            Ambulance suppliers concerned about
                                                   their existing or proposed arrangements        Ambulance suppliers should review
(d), (h), (i), (t), (u), and (v), respectively.)                                                the following arrangements with
                                                   may obtain binding advisory opinions
C. What Is ‘‘Remuneration’’ for Purposes           from the OIG.                                particular care. (This section is intended
of the Statute?                                      Ambulance suppliers should exercise        to be illustrative, not exhaustive, of
                                                   common sense when evaluating existing        potential areas of risk under the anti-
   Under the anti-kickback statute,                or prospective arrangements under the        kickback and beneficiary inducement
‘‘remuneration’’ means virtually                   anti-kickback statute. One good rule of      statutes.)
anything of value. A prohibited                    thumb is that all arrangements for items     1. Arrangements for Emergency Medical
kickback payment may be paid in cash               or services should be at fair market         Services (EMS)
or in kind, directly or indirectly,                value in an arms-length transaction not
covertly or overtly. Almost anything of            taking into account the volume or value      a. Municipal Contracts
value can be a kickback, including, but            of existing or potential referrals. For         Contracts with cities or other EMS
not limited to, money, goods, services,            each arrangement, an ambulance               sponsors for the provision of emergency
free or reduced rent, meals, travel, gifts,        supplier should carefully and accurately     medical services may raise anti-
and investment interests.                          document how it has determined fair          kickback concerns. Ambulance
D. Who Are Referral Sources for                    market value. As discussed further in        suppliers should not offer anything of
Ambulance Suppliers?                               appendix A.4, an ambulance supplier          value to cities or other EMS sponsors in
                                                   may not charge Medicare or Medicaid          order to secure an EMS contract. (In
  Any person or entity in a position to            substantially more than its usual charge     general, ambulance suppliers may
generate federal health care program               to other payors.                             provide cities or other municipal
business for an ambulance supplier,                  Ambulance suppliers should consult         entities with free or reduced cost EMS
directly or indirectly, is a potential             the safe harbor for discounts (42 CFR        for uninsured, indigent patients.) In
referral source. Potential referral sources        1001.952(h)) when entering into              addition, arrangements that cover both
include, but are not limited to,                   arrangements involving discounted            EMS and non-EMS ambulance business
governmental ‘‘9–1–1’’ or comparable               pricing. In most circumstances,              should be carefully scrutinized;
emergency medical dispatch systems,                ambulance suppliers who offer                conditioning EMS services on obtaining
private dispatch systems, first                    discounts to purchasers who bill federal     non-EMS business potentially
responders, hospitals, nursing facilities,         programs must fully and accurately           implicates the anti-kickback statute.
assisted living facilities, home health            disclose the discounts on the invoice,       Absent a state or local law requiring a
agencies, physician offices, staff of any          coupon, or statement sent to purchasers      tie between EMS and non-EMS
of the foregoing entities, and patients.           and inform purchasers of the                 business, ambulance suppliers
                         Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                               14253

contemplating such arrangements               arrangements raise issues with respect        Prohibited incentives include, without
should consider obtaining an OIG              to proper billing for restocked supplies      limitation, free goods and services and
advisory opinion. While cities and other      and drugs. Payment and coverage rules         copayment waivers. The statute
EMS sponsors may charge ambulance             are set by the health care program that       contains several narrow exceptions,
suppliers amounts to cover the costs of       covers the patient (e.g., Medicare or         including financial hardship copayment
services provided to the suppliers, they      Medicaid). To determine proper billing        waivers and incentives to promote the
should not solicit inflated payments in       for restocked supplies or drugs,              delivery of preventive care services as
exchange for access to EMS patients,          ambulance suppliers should consult the        defined in regulations. In addition,
including access to dispatch services         relevant program payment rules or             items or services of nominal value (less
under ‘‘9–1–1’’ or comparable systems.        contact the relevant payment entity.          than $10 per item or service or $50 in
   A city or other political subdivision of   Under the Medicare program, in almost         the aggregate annually) and any
a state (e.g., fire district, county, or      all circumstances the ambulance               payment that fits into an anti-kickback
parish) may not require a contracting         supplier—not the hospital—will be the         safe harbor are permitted.
ambulance supplier to waive                   party entitled to bill for the restocked         An ambulance supplier should not
copayments for its residents, but it may      supplies or drugs used in connection          routinely waive federal health care
pay uncollected, out-of-pocket                with an ambulance transport, even if          program copayments (e.g., no
copayments on behalf of its residents.        they are obtained through a restocking        ‘‘insurance only’’ billing), although the
Such payments may be made through             program. However, under the                   supplier may waive a patient’s
lump sum or periodic payments, if the         ambulance fee schedule, supplies and          copayment if it makes a good faith,
aggregate payments reasonably                 drugs are included in the bill for the        individualized assessment of the
approximate the otherwise uncollected         base rate and are not separately billable.    patient’s financial need.(16) Financial
cost-sharing amounts. However, a city         Ambulance suppliers should consult            hardship waivers may not be routine or
or other political subdivision that owns      with their payor to confirm appropriate       advertised. As discussed in section G
and operates its own ambulance service        billing during the new ambulance fee          above, cities and other political
is permitted to waive cost-sharing            schedule transition period.                   subdivisions are permitted to waive
amounts for its residents under a special                                                   copayments for services provided
CMS rule. (See CMS Carrier Manual,            2. Arrangements With Other Responders         directly to their residents.
section 2309.4; CMS Intermediary                 In many situations, it is common              Subscription or membership programs
Manual, section 3153.3A; see also, e.g.,      practice for a paramedic intercept or         that offer patients purported coverage
OIG Advisory Opinion No. 01–10 and            other first responder to treat a patient in   only for the ambulance supplier’s
01–11.)                                       the field, with a second responder            services are also problematic because
                                              transporting the patient to the hospital.     such programs can be used to disguise
b. Ambulance Restocking                                                                     the routine waiver of cost-sharing
                                              In some cases, the first responder is in
   Another common EMS arrangement             a position to influence the selection of      amounts. To reduce their risk under the
involves the restocking of supplies and       the transporting entity. While fair           anti-kickback statute, ambulance
drugs used in connection with patients        market value payments for services            suppliers offering subscription programs
transported to hospitals or other             actually provided by the first responder      should carefully review them to ensure
emergency receiving facilities. These         are appropriate, inflated payments by         that the subscription or membership
arrangements typically do not raise anti-     ambulance suppliers to generate               fees collected from subscribers or
kickback concerns. However, ambulance         business are prohibited, and the              members, in the aggregate, reasonably
suppliers participating in such               government will scrutinize such               approximate—from an actuarial or
arrangements can eliminate risk               payments to ensure that they are not          historical perspective—the amounts that
altogether by complying with the              disguised payments to generate calls to       the subscribers or members would
ambulance restocking safe harbor at 42        the transporting entity.                      expect to spend for cost-sharing
CFR 1001.952(v). In general, the safe                                                       amounts over the period covered by the
harbor requires that EMS restocking           3. Arrangements With Hospitals and            subscription or membership agreement.
arrangements involving free or reduced        Nursing Facilities
price supplies or drugs be conducted in          Because hospitals and nursing              VI. Conclusion
an open, public, and uniform manner,          facilities are key sources of non-              This ambulance compliance program
although hospitals may elect to restock       emergency ambulance business,                 guidance is intended as a resource for
only certain categories of ambulance          ambulance suppliers need to take              ambulance suppliers to decrease the
suppliers (e.g., nonprofits or                particular care when entering into            incidence of fraud and abuse as well as
volunteers). Restocking must be               arrangements with such institutions.          errors that might occur due to
accurately documented using trip              (See section F above.)                        inadequate training or inadvertent
sheets, patient care reports, patient                                                       noncompliance. We encourage
encounter reports, or other                   4. Arrangements With Patients                 ambulance suppliers to scrutinize their
documentation that records the specific          Arrangements that offer patients           internal practices to ensure the
type and amount of supplies or drugs          incentives to select particular               development of a comprehensive
used on the transported EMS patient           ambulance suppliers may violate the           compliance program.
and subsequently restocked. The               anti-kickback statute, as well as the           Compliance programs should reflect
documentation must be maintained for          CMP law that prohibits giving                 each ambulance supplier’s individual
5 years. The safe harbor also covers fair     inducements to Medicare and Medicaid          and unique circumstances. It has been
market value restocking arrangements          beneficiaries that the giver knows, or        the OIG’s experience that those health
and government-mandated restocking            should know, are likely to influence the      care providers and suppliers that have
arrangements. The safe harbor                 beneficiary to choose a particular            developed compliance programs not
conditions are set forth with specificity     practitioner, provider, or supplier of        only better understand applicable
in the regulations.                           items or services payable by Medicare or      federal health care program
   Wholly apart from anti-kickback            Medicaid. (See section 1128A(a)(5) of         requirements, but also their own
concerns, ambulance stocking                  the Act (42 U.S.C. 1320a-7a(a)(5).)           internal operations. We are hopeful that
14254                       Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices

this guidance will be a valuable tool in           4. Billing Medicare ‘‘Substantially in Excess’’   —HHS department or program being affected
the development and continuation of                of Usual Charges                                   by your allegation of fraud, waste, abuse/
ambulance suppliers’ compliance                       Ambulance suppliers generally may not           mismanagement: Centers for Medicare and
                                                   charge Medicare or Medicaid patients               Medicaid Services (formerly Health Care
programs.
                                                   substantially more than they usually charge        Financing Administration) Indian Health
Appendix A—Additional Risk Areas                   everyone else. If they do, they are subject to     Service Other (please specify)
                                                   exclusion by the OIG. This exclusion              —Please provide the following information
1. ‘‘No Transport’’ Calls and Pronouncement                                                           (however, if you would like your referral
of Death                                           authority is not implicated unless the
                                                   supplier’s charge for Medicare or Medicaid         to be submitted anonymously, please
   If an ambulance supplier responds to an         patients is substantially more than its median     indicate such in your correspondence or
emergency call, but a patient is not               non-Medicare/Medicaid charge. In other             phone call): Your Name
transported due to death, three Medicare           words, the supplier need not worry unless it       Your Street Address
rules apply. If an individual is pronounced        is discounting close to half of its non-           Your City/County
dead prior to the time the ambulance was           Medicare/Medicaid business. Ambulance              Your State
requested, there is no payment. If the             suppliers should review charging practices         Your Zip Code
individual is pronounced dead after the            with respect to Medicare and Medicaid              Your E-mail Address
ambulance has been requested, but before           billing to ensure that they are not charging      —Subject/Person/Business/Department that
any services are rendered, a BLS payment           Medicare or Medicaid substantially more            allegation is against: Name of Subject
will be made and no mileage will be paid.          than they usually charge other customers for       Title of Subject
If the individual is pronounced dead after         comparable services. It is appropriate for an      Subject’s Street Address
being loaded into the ambulance, the same          ambulance supplier to determine its usual          Subject’s City/County
payment rules apply as if the beneficiary          charge with reference to its total charges to      Subject’s State
were alive. Ambulance suppliers should             non-Medicare/Medicaid customers for an             Subject’s Zip Code
accurately represent the time of death and         ambulance transport (whether or not the           —Please provide a brief summary of your
request payment based on the                       charges are structured as base rate plus           allegation and the relevant facts.
aforementioned criteria.                           mileage or otherwise) and then to compare         Appendix C—Carrier Contact
                                                   the resulting ‘‘usual charge’’ to its total       Information
2. Multiple Patient Transports                     charge to Medicare (i.e., base rate plus
   On occasion, it may be necessary for an         mileage) or Medicaid for comparable               1. Medicare
ambulance to transport multiple patients           transport.                                           A complete list of contact information
concurrently. If more than one patient is                                                            (address, phone number, e-mail address) for
transported concurrently in one ambulance,         Appendix B—OIG/HHS Information
                                                                                                     Medicare Part A Fiscal Intermediaries,
the amount billed should be consistent with           The OIG’s web site (http://oig.hhs.gov)        Medicare Part B Carriers, Regional Home
the multiple transport guidelines established      contains various links describing the             Health Intermediaries, and Durable Medical
by the payor in that region. Under CMS’s           following: (1) Authorities and Federal            Equipment Regional Carriers can be found on
new fee schedule rules for multiple                Register Notices, (2) Publications, (3)           the CMS Web site at http://cms.hhs.gov/
transports, Medicare will pay a percentage of      Reports, (4) Hearing Testimony, (5) Fraud         contacts/incardir.asp.
the payment allowance for the base rate            Prevention and Detection, (6) Reading Room,
applicable to the level of care furnished to       (7) OIG Organization and (8) Employment           2. Medicaid
the Medicare beneficiary (e.g., if two patients    Opportunities. Such information is                   Contact information (address, phone
are transported simultaneously, 75 percent of      frequently updated and is a useful tool for       number, e-mail address) for each state
the applicable base rate will be reimbursed        ambulance providers seeking additional OIG        Medicaid director can be found on the CMS
for each of the Medicare beneficiaries).           resources.                                        Web site at http://cms.hhs.gov/medicaid/
Coinsurance and deductible amounts will               Also listed on the OIG’s web site is the OIG   mcontact.asp. In addition to a list of state
apply to the prorated amounts.                     Hotline Number. One method for providers          Medicaid directors, the Web site includes
                                                   to report potential fraud, waste and abuse is     contact information for each state survey
3. Multiple Ambulances Called to Respond                                                             agency and the CMS Regional Offices.
                                                   to contact the OIG Hotline number. All HHS
to Emergency Call
                                                   and contractor employees have a
   On occasion, more than one ambulance                                                              3. Ambulance Fee Schedule
                                                   responsibility to assist in combating fraud,
supplier responds to an emergency call and         waste, and abuse in all departmental                 Information related to the development of
is present to transport a beneficiary. These       programs. As such, providers are encouraged       the ambulance fee schedule is located at
are often referred to as ‘‘dual transports.’’ In   to report matters involving fraud, waste and      http://cms.hhs.gov/suppliers/afs/default.asp.
such cases, only the transporting ambulance        mismanagement in any departmental                 Appendix D—Internet Resources
supplier may bill Medicare for the service         program to the OIG. The OIG maintains a
provided. If payment is desired for services       hotline that offers a confidential means for      1. Centers for Medicare and Medicaid
provided to a patient, the non-transporting        reporting these matters.                          Services
ambulance company should receive it                                                                     The CMS Web site (http://cms.hhs.gov/)
directly from the transporting supplier based      Contacting the OIG Hotline
                                                                                                     includes information on a wide array of
on a negotiated arrangement. These payments          By Phone: 1–800–HHS–TIPS (1–800–447–            topics, including Medicare’s National
should be fair market value for services           8477).                                            Coverage Database, National Coverage
actually rendered by the non-transporting            By Fax: 1–800–223–8164.                         Policies, Laws and Regulations and State
supplier, and the parties should review these        By E-Mail: Htips@oig.hhs.gov.                   Waiver and Demonstration Programs. In
payment arrangements for compliance with             By TTY: 1–800–377–4950.                         addition, this Web site contains information
the anti-kickback statute. On occasion, when         By Mail: Office of Inspector General,           related to Medicaid including a General
multiple ambulance crews respond to a call,        Department of Health and Human Services,          Medicaid Overview, State and Federal Health
a BLS ambulance may provide the transport,         Attn: HOTLINE, 330 Independence Ave.,             Program Contacts, State Medicaid Manual,
but the level of services provided may be at       SW., Washington, DC 20201.                        State Medicaid Plans, State Waivers and
the ALS level. If a BLS supplier is billing at       When contacting the hotline, please             Demonstration Programs, Letters to State
the ALS level because of services furnished        provide the following information to the best     Officials, and CMS Publications.
by an additional ALS crew member,                  of your ability:
appropriate documentation should                   —Type of Complaint: Medicare Part A               2. CMS Medicare Training
accompany the claim to indicate to the payor         Medicare Part B                                    This CMS Web site (http://
that dual transportation was provided. In any        Indian Health Service                           www.cms.hhs.gov/medlearn/cbts.asp)
event, only one supplier may submit the              TRICARE                                         provides computer-based training related to
claim for payment.                                   Other (please specify)                          CMS’s purpose and history, the three types
                           Federal Register / Vol. 68, No. 56 / Monday, March 24, 2003 / Notices                                       14255

of Medicare coverage, the roles agencies and         6. OEI–09–95–00412, available on the             Dated: February 14, 2003.
contractors play, and the claims handling         OIG’s Web site at http://oig.hhs.gov/oei.         Janet Rehnquist,
process.                                             7. CMS Program Memorandum B–00–09
                                                                                                    Inspector General.
                                                  describes different options for ambulance
3. Government Printing Office (GPO)               suppliers having difficulty obtaining PCSs.       [FR Doc. 03–6866 Filed 3–21–03; 8:45 am]
  The GPO Web site (http://                       (See 42 CFR 410.40(d)(3)(iii) and (iv).) A PCS    BILLING CODE 4152–01–P
www.access.gpo.gov) provides access to            is not required, for beneficiaries who are not
federal statutes and regulations pertaining to    under the direct care of a physician, whether
federal health care programs.                     the beneficiary resides at home or in a           DEPARTMENT OF HEALTH AND
                                                  facility. Id. Section 410.40(d)(3)(ii).
4. The U.S. House of Representatives Internet                                                       HUMAN SERVICES
                                                     8. 42 CFR 410.42(d).
Library                                              9. On December 28, 2000, the Department
                                                                                                    Substance Abuse and Mental Health
  The U.S. House of Representatives Internet      of Health and Human Services (HHS)
Library Web site (http://.uscode.house.gov/       released its final rule implementing the          Services Administration
usc.htm) provides access to the United States     privacy provisions of the Health Insurance
Code, which contains laws pertaining to           Portability and Accountability Act of 1996.       Agency Information Collection
federal health care programs.                     The rule became effective in April 2001, and      Activities: Proposed Collection;
                                                  regulates access, use, and disclosure of          Comment Request
Endnotes:                                         personally identifiable health information by
   1. To date, the OIG has issued compliance      covered entities (health providers, plans, and      In compliance with section
program guidance for the following nine           clearinghouses). Guidance on an ambulance         3506(c)(2)(A) of the Paperwork
industry sectors: (1) Hospitals; (2) clinical     supplier’s compliance with the HHS Privacy        Reduction Act of 1995 concerning
laboratories; (3) home health agencies; (4)       Regulations is beyond the scope of this CPG;      opportunity for public comment on
durable medical equipment suppliers; (5)          however, it will be the responsibility of         proposed collections of information, the
third-party medical billing companies; (6)        ambulance suppliers to comply. Most health        Substance Abuse and Mental Health
hospices; (7) Medicare+Choice organizations       plans and providers must comply with the          Services Administration will publish
offering coordinated care plans; (8) nursing      rule by April 14, 2003. In the meantime,          periodic summaries of proposed
facilities; and (9) individual and small group    many organizations are considering and
                                                                                                    projects. To request more information
physician practices. The guidances listed         analyzing the privacy issues.
here and referenced in this document are             10. Loaded miles refers to the number of       on the proposed projects or to obtain a
available on the OIG Web site at http://          miles that the patient is physically on board     copy of the information collection
oig.hhs.gov in the Fraud Prevention and           the ambulance.                                    plans, call the SAMHSA Reports
Detection section.                                   11. HCFA Program Memorandum                    Clearance Officer on (301) 443–7978.
   2. The CMS’s final ambulance fee schedule      Transmittal AB–00–118, issued on November           Comments are invited on: (a) Whether
rule was published in the Federal Register        30, 2000.                                         the proposed collections of information
on February 27, 2002 (67 FR 9100) and went           12. In addition to Medicare and Medicaid,      are necessary for the proper
into effect on April 1, 2002.                     the federal health care programs include, but     performance of the functions of the
   3. The term ‘‘universe’’ is used in this CPG   are not limited to, TRICARE, Veterans Health      agency, including whether the
to mean the generally accepted definition of      Care, Public Health Service programs, and
the term for purposes of performing a             the Indian Health Services.
                                                                                                    information shall have practical utility;
statistical analysis. Specifically, the term         13. The procedures for applying for an         (b) the accuracy of the agency’s estimate
‘‘universe’’ means the total number of            advisory opinion are set forth at 42 CFR part     of the burden of the proposed collection
sampling units from which the sample was          1008. and on the OIG Web page at http://          of information; (c) ways to enhance the
selected.                                         www.oig.hhs.gov/fraud/                            quality, utility, and clarity of the
   4. The OIG encourages that providers/          advisoryopinions.html#3. All OIG advisory         information to be collected; and (d)
suppliers police themselves, correct              opinions are published on the OIG web page.       ways to minimize the burden of the
underlying problems, and work with the            A number of published opinions involving          collection of information on
government to resolve any problematic             ambulance arrangements provide useful             respondents, including through the use
practices. The OIG’s Provider Self-Disclosure     guidance for ambulance suppliers. These
Protocol, published in the Federal Register       include OIG Advisory Opinions Nos. 97–6,
                                                                                                    of automated collection techniques or
on October 30, 1998 (63 FR 58399), sets forth     98–3, 98–7, 98–13, 99–1, 99–2, 99–5, 00–7,        other forms of information technology.
the steps, including a detailed audit             00–9, 00–11, 01–10, 01–11, 01–12, 01–18,          Proposed Project: National Cross-Site
methodology, that may be undertaken if            02–2, 02–3, 02–8, and 02–15. Other advisory       Assessment of the Addiction
suppliers wish to work openly and                 opinions not specifically involving
cooperatively with the OIG. The Provider          ambulance arrangements may also provide
                                                                                                    Technology Transfer
Self-Disclosure Protocol is open to all health    useful guidance.                                     Centers Network—(OMB No. 0930–
care providers and other entities and is             14. See 65 FR 24400; April 26, 2000.           0216, Revision—The Substance Abuse
intended to facilitate the resolution of             15. See Special Advisory Bulletin: Offering    and Mental Health Administration’s
matters that, in the provider’s reasonable        Gifts and Other Inducement to Beneficiaries,      (SAMHSA) Center for Substance Abuse
assessment, may potentially violate federal       located on the OIG Web page at http://            Treatment (CSAT) intends to continue
criminal, civil, or administrative laws. The      www.oig.hhs.gov/fraud/fraudalerts.html#2.
Provider Self-Disclosure Protocol is not             16. See Special Fraud Alert: Routine
                                                                                                    an assessment of its Addiction
intended to resolve simple mistakes or            Waiver of Copayments or Deductibles Under         Technology Transfer Centers (ATTCs).
overpayment problems. The OIG’s Self-             Medicare Part B (59 FR 65372, 65374 (1994)),      The data collection instruments are
Disclosure Protocol can be found on the OIG       located on the OIG Web page at http://            being modified, and the methodology
Web site at http://oig.hhs.gov.                   www.oig.hhs.gov/fraud/fraudalerts.html#1.         will be updated to comply with CSAT’s
   5. Ambulance suppliers should read the            17. The OIG may exclude from                   new Government Performance and
OIG’s September 1999 Special Advisory             participation in the federal health care          Results Act (GPRA) requirements. CSAT
Bulletin, entitled ‘‘The Effect of Exclusion      programs any provider that submits or causes      is requiring all of its programs to use
From Participation in the Federal Health Care     to be submitted bills or requests for payment     standard GPRA Customer Satisfaction
Programs,’’ published in the Federal Register     (based on charges or costs) under Medicare
on October 7, 1999 (64 FR 58851), which is        or Medicaid that are substantially in excess
                                                                                                    forms for training, technical assistance
located at http://oig.hhs.gov/frdalrt, for more   of such providers’ usual charges or costs,        and meeting events, approved by OMB
information regarding excluded individuals        unless the Secretary finds good cause for         under OMB control number 0930–0197.
and entities and the effect of employing or       such bills or requests. (See section 1128(b)(6)   In response to these new requirements,
contracting with such individuals or entities.    of the Act (42 U.S.C. 1320a–7(b)(6)).)            the ATTC Network will modify the
